     April 10, 2003




Acquisition
Cooperative Agreements Supporting
the Mentor Protégé Program
(D-2003-077)




               Department of Defense
           Office of the Inspector General
Quality               Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax
  (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

DoDGARs               DoD Grant and Agreement Regulations
FAR                   Federal Acquisition Regulation
GAO                   General Accounting Office
HBCU/MI               Historically Black Colleges and Universities/Minority Institutions
ISO                   International Organization for Standardization
MOLIS                 Minority On-line Information Service
OSD                   Office of the Secretary of Defense
SADBU                 Small and Disadvantaged Business Utilization
UNCF                  United Negro College Fund
USAMRAA               U.S. Army Medical Research Acquisition Activity
          Office of the Inspector General of the Department of Defense
Report No. D-2003-077                                                         April 10, 2003
   (Project No. D2002CF-0116)

      Cooperative Agreements Supporting the Mentor Protégé Program

                                 Executive Summary

Who Should Read This Report and Why? Contracting and grants officers that award
cooperative agreements and Military Department and Defense agency Small and
Disadvantaged Business Utilization officials that oversee Mentor Protégé Program efforts
should read this report. The report discusses the inappropriate use of cooperative
agreements and Mentor Protégé Program funds.

Background. The FY 1991 National Defense Authorization Act, Public Law 101-510,
established the Mentor Protégé Program. The purpose of the Program is to encourage
major DoD contractors to assist in improving the capabilities of small disadvantaged
businesses to perform as responsive subcontractors and suppliers. The Office of the
Secretary of Defense Small and Disadvantaged Business Utilization assists small
disadvantaged businesses and coordinates the Mentor Protégé Program. The DoD
Mentor Protégé Program receives approximately $31 million annually from Congress.
The Director, Office of the Secretary of Defense Small and Disadvantaged Business
Utilization requested that the Inspector General of the Department of Defense audit two
cooperative agreements entered into under the Mentor Protégé Program to determine
whether work was performed as specified and whether the work provided value to the
Government.

A cooperative agreement is a legal instrument that is used to form a relationship where
the principal purpose is to provide value or assistance to a recipient to carry out a public
purpose of support or stimulation authorized by a law of the United States. In FY 1998,
the Office of the Secretary of Defense Small and Disadvantaged Business Utilization
entered into cooperative agreements with ScienceWise, Incorporated, cooperative
agreement DAMD17-98-2-8011 with a final value of $2,887,539, and the United Negro
College Fund, cooperative agreement DAMD17-98-2-8012 with a final value of
$4,392,036. The U.S. Army Medical Research Acquisition Activity awarded the
cooperative agreements for the Office of the Secretary of Defense Small and
Disadvantaged Business Utilization using Mentor Protégé Program funds.

Results. The DoD Mentor Protégé Program was not properly managed. The U.S. Army
Medical Research Acquisition Activity disregarded applicable regulations in awarding
cooperative agreements in support of the Office of the Secretary of Defense Small and
Disadvantaged Business Utilization when competitive contracts would have been the
correct contract instruments. The cooperative agreements did not contain statements of
work with specific performance standards, but rather provided general tasks for the
support of historically black colleges and universities and minority institutions.
Therefore, there were inadequate means to determine if the Office of the Secretary of
Defense Small and Disadvantaged Business Utilization obtained the services and
performance levels it intended to receive. However, we did determine that the work
performed did not relate to the Mentor Protégé Program. In addition, the U.S. Army
Medical Research Acquisition Activity and the Office of the Secretary of Defense Small
and Disadvantaged Business Utilization did not exercise sound business practices in
administering or overseeing the cooperative agreements. Further, the Office of the
Secretary of Defense Small and Disadvantaged Business Utilization inappropriately used
Mentor Protégé Program funds.

As a result, potential Antideficiency Act violations may have occurred. Further, an
assessment of any benefits derived from the monies spent could not be made. The
U.S. Army Medical Research and Materiel Command needs to review all active
cooperative agreements to identify any other inappropriate agreements and terminate
them and negotiate contracts at the next available option period. Officials should initiate
appropriate administrative action against U.S. Army Medical Research Acquisition
Activity personnel responsible for the approval, award, and administration of cooperative
agreements DAMD17-98-2-8011 and DAMD17-98-2-8012. A command instruction
addressing cooperative agreement preparation at the U.S. Army Medical Research
Acquisition Activity would help ensure similar problems do not reoccur. In addition, the
Office of the Under Secretary of Defense (Comptroller)/Chief Financial Officer must
initiate a preliminary review of potential Antideficiency Act violations. An operating
budget should be developed for the Office of the Secretary of Defense Small and
Disadvantaged Business Utilization. Both the U.S. Army Medical Research Acquisition
Activity and the Office of the Secretary of Defense Small and Disadvantaged Business
Utilization need to ensure that management controls exist so that program budgeting and
contracting processes are performed correctly. (See the Finding section of the report for
detailed recommendations.)

Management Comments and Audit Response. The Principal Assistant Responsible for
Contracting, U.S. Army Medical Research and Materiel Command concurred with all
recommendations directed to the U.S. Army Medical Research and Materiel Command
and the Director, U.S. Army Medical Research Acquisition Activity except the
recommendation to initiate appropriate administrative action against officials responsible
for the approval, award, and administration of the cooperative agreements. The Principal
Assistant argued that, in the instances cited, the law did not require competitive contracts
and that there was no evidence of intentional misconduct or gross negligence as
personnel were executing a request from high-level DoD procurement officials to use
assistance agreements. We disagree and feel that the contracting officials involved in the
award of the agreements should have known better. The Principal Assistant also
contended that the report stated that cooperative agreements were used when prohibited.
We disagree; the report stated that cooperative agreements were used when it was clearly
in the best interest of the Government to use contracts that would have helped ensure that
the Government received specific services that represented adequate value. We request
that the U.S. Army Medical Research and Materiel Command reconsider its position and
provide additional comments on the final report by June 10, 2003. See the Finding
section of the report for a discussion of management comments and the Management
Comments section of the report for the complete text of the comments.

We provided a draft of this report to the Under Secretary of Defense for Acquisition,
Technology, and Logistics; the Under Secretary of Defense (Comptroller)/Chief
Financial Officer; and the Director, Office of Small and Disadvantaged Business
Utilization, Office of the Secretary of Defense on January 15, 2003. As of April 4, 2003,
we had not received management comments from those offices. We request that those
offices provide comments on the final report by June 10, 2003.


                                             ii
Table of Contents

Executive Summary                                       i

Background                                              1

Objectives                                              3

Finding
     Mentor Protégé Cooperative Agreements              4

Appendixes
     A. Scope and Methodology                          22
          Management Control Program Review            23
          Prior Coverage                               24
     B. Report Distribution                            25

Management Comments
     U.S. Army Medical Research and Materiel Command   27
Background
    This audit was performed at the request of the current Director of the Office of the
    Secretary of Defense (OSD) Small and Disadvantaged Business Utilization
    (SADBU). The Director requested that we audit two OSD SADBU office
    cooperative agreements to determine whether work was performed as specified in
    the agreements and to determine whether the work provided value to the
    Government. The U.S. Army Medical Research Acquisition Activity
    (USAMRAA) awarded the two cooperative agreements in FY 1998 using Mentor
    Protégé Program funds. The cooperative agreements are between the OSD
    SADBU office and ScienceWise, Incorporated (ScienceWise), cooperative
    agreement DAMD17-98-2-8011, and between the OSD SADBU office and the
    United Negro College Fund (UNCF), cooperative agreement
    DAMD17-98-2-8012.

    OSD SADBU Office. The OSD SADBU office mission is to enable the
    warfighter to gain access to the efficiency, innovation, and creativity of small
    businesses. The OSD SADBU office is authorized to employ 11 Government
    employees and also has contracted for 10 support staff. The office does not have
    an operating budget beyond receiving funds for payroll and travel, but receives
    approximately $31 million annually in Mentor Protégé Program funds and also
    $1 to $2 million annually in Small Business Innovation Research funds. The
    OSD SADBU office supports such programs as the Mentor-Protégé Program,
    Small Business Innovation Research and Small Business Technology Transfer,
    Women-Owned Small Businesses, Historically Black Colleges and
    Universities/Minority Institutions (HBCU/MI), Indian Incentive Program, and
    Comprehensive Subcontracting Plan Test Program.

    The OSD SADBU office assists numerous small businesses and disadvantaged
    businesses with issues related to DoD procurement. Small disadvantaged
    businesses are those small businesses owned and controlled by socially and
    economically disadvantaged individuals. In addition, the OSD SADBU office
    coordinates the DoD Mentor Protégé Program through policy guidance to
    Military Departments and Defense agencies and authorizes the use of Mentor
    Protégé Program funds. Each Military Department has a SADBU office that
    reports to the Military Department Secretary; however, each Military
    Department’s SADBU office also coordinates with the OSD SADBU office. The
    OSD SADBU Director reports to the Under Secretary of Defense for Acquisition,
    Technology, and Logistics.

    USAMRAA. The USAMRAA mission is to provide high-quality, timely,
    customer-focused contracting guidance and acquisition solutions to the U.S.
    Army Medical Research and Materiel Command. USAMRAA also supports the
    Fort Detrick Garrison and its military tenant activities, Army-wide projects
    sponsored by the Army Surgeon General, and numerous congressionally
    mandated programs, such as the Mentor Protégé Program.

    Mentor Protégé Program. The FY 1991 National Defense Authorization Act
    (Public Law 101-510), section 831, established the Mentor Protégé Program. The
    purpose of the Program is to encourage major DoD contractors to assist in


                                         1
improving small disadvantaged businesses’ capabilities to perform as responsive
subcontractors and suppliers. The DoD Comptroller provides funds to the OSD
SADBU office, which provides a portion of the funds to Military Departments
and Defense agencies. The Mentor Protégé Program receives approximately
$31 million annually, which is used to fund cooperative agreements, the OSD
SADBU office support contract and other administrative costs, and mentor
programs in the Military Departments and Defense agencies.

Cooperative Agreements. DoD 3210.6-R, “DoD Grant and Agreement
Regulations,” April 13, 1998 (DoDGARs), which implements the Federal Grant
and Cooperative Agreement Act, provides DoD guidance for grants and
cooperative agreements. Prior to April 13, 1998, an interim guidance version of
DoD 3210.6-R was in effect. DoDGARs defines a cooperative agreement as a
legal instrument that is used to enter into a relationship where the principal
purpose is to provide value or assistance to a recipient to carry out a public
purpose of support or stimulation authorized by a law of the United States. For
cooperative agreements, substantial involvement is expected between a DoD
organization and the recipient. Unlike contracts, the principle purposes of
cooperative agreements are not for the direct benefit of the Government.
Furthermore, the DoDGARs regulate cooperative agreements, whereas the
Federal Acquisition Regulation (FAR) regulates contracts.

        Cooperative Agreement DAMD17-98-2-8011. On April 2, 1998,
USAMRAA awarded cooperative agreement DAMD17-98-2-8011 for $603,049
to Federal Information Exchange, Inc., now known as ScienceWise. The purpose
of the cooperative agreement was to promote the participation of HBCU/MI in
Federal research, education, and assistance programs, principally through the
Minority On-line Information Service (MOLIS), a database containing the
capabilities of the HBCU/MI and faculty profiles. An HBCU is a historically
black college or university that was established prior to 1964, is accredited, and
whose principal mission was, and is, the education of African Americans. An MI
is an institution of higher education whose enrollment of a single minority or a
combination of minorities exceeds 50 percent of the total enrollment. After a
base year, 2 option years, and a 1-year extension, the total value of the
cooperative agreement reached $2,887,539.
       Cooperative Agreement DAMD17-98-2-8012. On April 30, 1998,
USAMRAA awarded cooperative agreement DAMD17-98-2-8012 to UNCF for
$1,048,434. UNCF is an African-American education assistance organization.
The purpose of the cooperative agreement was to offer technical assistance to
HBCU/MI regarding DoD programs, requirements, procurement procedures, and
proposal submissions. UNCF planned to provide the technical assistance by
hosting conferences and workshops at various HBCU/MI located in different
regions of the country. The cooperative agreement contained a base year and
3 option years. The total value of the cooperative agreement reached $4,392,036,
and a 1-year, no-cost extension was exercised at the end of the third option year.




                                    2
Objectives
    Our overall audit objectives were to determine whether the work as specified in
    the agreements was performed and whether the Government received adequate
    value from the work. In addition, we reviewed the legal uses of Mentor Protégé
    Program funds. We also reviewed management control programs related to the
    overall objective. See Appendix A for a discussion of the audit scope and
    methodology, review of the management control programs, and prior coverage
    related to the objectives.




                                        3
           Mentor Protégé Cooperative Agreements
           The DoD Mentor Protégé Program was not properly managed.
           USAMRAA disregarded applicable regulations in awarding and
           administering cooperative agreements. USAMRAA and the OSD
           SADBU office:

                   •   used the Mentor Protégé Program to obtain services from
                       contractors that were not qualified to participate in the
                       Program,

                   •   did not follow provisions of either the FAR or the DoDGARs
                       and improperly awarded cooperative agreements when
                       competitive contracts should have been used to obtain services,
                       and

                   •   did not exercise sound business judgment in administering or
                       overseeing the cooperative agreements.

           Both USAMRAA and the OSD SADBU office did not adequately
           administer the agreements because of inadequate management controls.
           As a result, USAMRAA awarded legal instruments with little control over
           public funds and placed the Government at serious risk for lawsuits. In
           addition, the OSD SADBU office used Mentor Protégé Program funds
           provided by Congress for efforts unrelated to the Program and violations
           of the Antideficiency Act may have occurred. Also, USAMRAA awarded
           approximately $1 million of Government funds without proper authority,
           the OSD SADBU office denied Mentor Protégé Program participants
           approximately $12 million of Mentor Protégé Program funds, and a small
           business stated that it was put out of business by the OSD SADBU office.


Federal Regulations and Cooperative Agreements
    When the principal purpose of a transaction is the acquisition of services for the
    direct benefit of the Government, a contract shall be used. Contracts, as defined
    by the FAR, are mutually binding relationships obligating the seller to furnish
    supplies or services and the buyer to pay for them. Contracts include various
    types of commitments that obligate the Government to an expenditure of
    appropriated funds and, unless otherwise authorized, are in writing. However,
    contracts do not include grants and cooperative agreements, which are discussed
    in section 63, title 31, United States Code.

    DoDGARs 22.305 states that grants officers shall use merit-based, competitive
    procedures to award grants and cooperative agreements in every case where
    required by statute, and to the maximum extent practicable, in all cases where not
    required by statute. DoDGARs 21.220 states that grants officers are responsible
    for ensuring that individual grants and cooperative agreements are used
    effectively in the execution of DoD programs, and are awarded and administered
    in accordance with applicable laws, executive orders, regulations, and DoD


                                         4
    policies. In addition, section 21.115 states that the head of each DoD Component
    that awards or administers grants and cooperative agreements, or his or her
    designee, is responsible for ensuring compliance with the DoDGARs within that
    DoD Component. DoDGARs 34.18 states that, “in accordance with 32 CFR
    [Code of Federal Regulations] 22.205(b), grants and cooperative agreements shall
    not provide for the payment of fee or profit to the recipient.” DoDGARs 34.12
    states that the preferred method of payment is the “reimbursement method.” The
    “advance payment method” may be used in exceptional circumstances.

    ScienceWise Cooperative Agreement. In August 1997, ScienceWise submitted
    an unsolicited proposal that resulted in a total value of $2,067,349 for a
    cooperative agreement with the OSD SADBU office to expand the MOLIS
    HBCU/MI database. USAMRAA awarded cooperative agreement
    DAMD17-98-2-8011 from April 15, 1998, through January 14, 1999, with
    2 option years.

    Under the agreement, ScienceWise maintained MOLIS, a database consisting
    mainly of minority universities. The database included institutional information
    for each university such as a general description, academic programs, degrees,
    accreditation, and research capabilities. MOLIS was used to electronically
    deliver, through e-mail, contract and grant information to HBCU/MI. MOLIS
    could also be used to electronically notify more than 40,000 HBCU/MI faculty
    and administrators about Government contract and grant opportunities. Prior to
    the cooperative agreement, DoD was funding the MOLIS effort through a
    cooperative agreement between ScienceWise and the Department of Energy.

    UNCF Cooperative Agreement. In August 1997, UNCF submitted an
    unsolicited proposal that resulted in a total value of $4,411,095 to the OSD
    SADBU office for a cooperative agreement to provide technical assistance to
    HBCU/MI. USAMRAA awarded cooperative agreement DAMD17-98-2-8012
    for $1,048,434 from May 1, 1998, through April 30, 1999, with 3 option years.

    Under the agreement, UNCF worked with the OSD SADBU office and HBCU/MI
    to host conferences and workshops that provided information on Government
    grants and contracts available to HBCU/MI. UNCF had received a previous
    contract from DoD to strengthen the capacity of UNCF members to compete for
    DoD grants and contracts. The UNCF DoD Infrastructure Development
    Assistance Program existed to increase HBCU participation in DoD programs.
    The 1997 unsolicited proposal contained similar tasks.


Mentor Protégé Program
    Cooperative agreements, with Mentor Protégé Program funding, were awarded to
    contractors that were not eligible as mentors, to develop opportunities for
    institutions of higher learning and nonprofit organizations that were not eligible
    as protégés, and for purposes other than furthering the objectives of the Mentor
    Protégé Program.




                                         5
    Mentor Protégé Program Eligibility. As provided by the FY 1991 National
    Defense Authorization Act, section 831, prospective mentor firms must meet
    eligibility requirements in order to furnish assistance to small disadvantaged
    businesses as part of the Mentor Protégé Program. To be eligible as mentors,
                    during the fiscal year preceding the fiscal year in which the mentor
                    firm enters into the agreement, the total amount of the Department of
                    Defense contracts awarded such mentor firm and the subcontracts
                    awarded such mentor firm under Department of Defense contracts was
                    equal to or greater than $100,000,000 . . . .

    The prospective protégé firms must be small disadvantaged business concerns.
    Mentors and protégés enter into mentor protégé agreements that include
    developmental programs for the protégés, including factors to assess the
    developmental progress of the firms under the Program and the anticipated
    number and types of subcontracts to be awarded to protégé firms. The OSD
    SADBU office is responsible for reviewing and approving applications from
    prospective mentor firms.

    HBCU/MI Assistance. USAMRAA and the OSD SADBU office awarded
    cooperative agreements to ScienceWise and UNCF for efforts in support of the
    HBCU/MI programs and not the Mentor Protégé Program. The HBCU/MI
    program is one of the six programs administered by the SADBU office.
    However, HBCUs and MIs were not eligible as protégés, as they were not small
    disadvantaged business concerns, but nonprofit institutions.∗ ScienceWise and
    UNCF did not qualify as mentor firms because there was no evidence that either
    met the statutory requirements for becoming a mentor. The statutory purpose of
    the Mentor Protégé Program was not met as the cooperative agreements did not
    involve major DoD contractors furnishing assistance to disadvantaged small
    business concerns. In addition, section 831 of the FY 1991 National Defense
    Authorization Act does not provide for cooperative agreements to be used in
    support of the Mentor Protégé Program.


Award of Cooperative Agreements
    USAMRAA improperly awarded cooperative agreements when competitive
    contracts should have been used to obtain services. Cooperative agreements set
    generalized requirements while contracts usually have specific statements of
    work, require competition, and contain performance measures to evaluate
    contractor performance. The agreements also included provisions that are counter
    to Federal regulations for grants and cooperative agreements. The ScienceWise
    cooperative agreement allowed profit/fee to be included in the agreement under
    the guise of cost of money and increased labor rates, allowed advance payments
    to a for-profit organization without justification, and was extended for an
    additional year without legal authority.


    ∗
        Business concerns are defined by the Small Business Administration as small businesses which
        are “organized for profit.”



                                                 6
Cooperative Agreements Versus Contracts. Prior to contacting USAMRAA,
officials from the OSD SADBU office, including the former Director, approached
at least one other contracting activity, Defense Contracting
Center-Washington, D.C. (formerly the Defense Supply Service-Washington).
The officials were requesting two cooperative agreements be awarded, one to
ScienceWise for the maintenance of the MOLIS and one to UNCF for technical
assistance to HBCU/MI. The Defense Contracting Center declined to award the
cooperative agreements because it did not believe that there was any specific
statutory authority to award the cooperative agreements. The Defense
Contracting Center believed contracts were the correct vehicle for obtaining the
services. DoD Directive 5335.2, “Defense Supply Service-Washington,” April
21, 1993, states that DoD Components located within the National Capital Region
shall use the services of Defense Contracting Center-Washington, D.C., to the
maximum extent practicable. It appears that the former Director of the OSD
SADBU office desired cooperative agreements and “shopped” for a contracting
activity that would award cooperative agreements without regard for the correct
contracting vehicle.

There was no specific statute authorizing the use of those two cooperative
agreements. Although USAMRAA cited section 2358, title 10, United States
Code, “Research and Development Projects,” as an authorizing statute, it was not
a proper statutory authority since the cooperative agreements were not for
research and development projects. USAMRAA routinely awarded cooperative
agreements for medical research in support of the U.S. Army Medical Research
and Materiel Command and obtained legal approval of the agreements from
USAMRAA counsel during the cooperative agreement award process. The
USAMRAA cooperative agreement award process included a legal review by the
Judge Advocate Division. However, the USAMRAA counsel that approved the
two agreements in question stated that in 1998 he had little experience with
cooperative agreements and should not have approved either the ScienceWise or
UNCF cooperative agreement.

According to the FAR, a contract should be used when the Government is
purchasing services. The services included in the ScienceWise and UNCF
cooperative agreements, MOLIS maintenance and HBCU/MI assistance, clearly
were functions that could be contracted. Contracts require specific statements of
work describing the services required, market research to determine if other
sources of those services exist, and price negotiations to assure the Government
received fair and reasonable prices. Cooperative agreements do not. The OSD
SADBU office used unsolicited proposals provided by the contractors instead of
developing specific statements of work that defined the tasks to be accomplished.
FAR 2.101 defines an unsolicited proposal as a written proposal for a new or
innovative idea that is submitted to an agency on the initiative of the offeror. The
OSD SADBU office was responsible for determining requirements and
developing statements of work that could be used in competitive contracting
processes. The cooperative agreements did not contain specific statements of
work; therefore, we could not determine if the tasks performed were the tasks that
the OSD SADBU office had planned when the cooperative agreements were
awarded. In addition, the cooperative agreement files did not contain official
justifications for sole source selections, or certifications that the Government had
paid a fair and reasonable price for the services obtained.


                                     7
A contributing factor to the USAMRAA award of the cooperative agreements was
the 2 percent surcharge it receives from non-Fort Detrick commands for
processing and administering cooperative agreements. USAMRAA contracting
officials stated that they receive significant income from the 2 percent surcharge,
without which they could not meet payroll requirements for contracting
personnel. USAMRAA received approximately $145,592 for awarding and
administering the two cooperative agreements. If the Defense Contracting
Center-Washington, D.C., had awarded contracts for the ScienceWise and UNCF
efforts, it is likely that the $145,592 would have been put to better use, there
would have been specific statements of work, and there would have been
increased assurance that the Government would receive measurable value from
the work.

        Competition Requirements. Although DoDGARs states that it is DoD
policy to maximize competition when awarding cooperative agreements, grant
officials at USAMRAA did not attempt to compete the requirement for the
maintenance and expansion of the MOLIS when they awarded cooperative
agreement DAMD17-98-2-8011. However, both USAMRAA and OSD SADBU
officials agreed that the requirement could have been competed. No official
documentation existed as to why competition was not used and there was no
evidence that other contractors had been contacted. The fact that ScienceWise
submitted an unsolicited proposal for the requirement was not a valid justification
for the Government to award sole source to ScienceWise. The use of cooperative
agreement procedures allowed USAMRAA to bypass the requirements of FAR
Subpart 15.6 pertaining to unsolicited proposals. The ScienceWise unsolicited
proposal was for continuation of efforts to maintain and expand the MOLIS
database, not for a new or unique idea. If ScienceWise’s proposal had been
subjected to normal FAR procedures, it would have had to be competed or a sole
source procurement would have to be documented and justified.

        Grant officials at USAMRAA did not attempt to compete the requirement
for providing technical assistance to HBCU/MI when they awarded cooperative
agreement DAMD17-98-2-8012. There are other organizations, including the
American Indian Higher Education Consortium, the Hispanic Association of
Colleges and Universities, and the National Association for Equal Opportunity
that were capable of meeting the requirements of the cooperative agreement. No
documentation existed as to why competition was not used. The fact that UNCF
submitted an unsolicited proposal for the requirement was not justification for the
Government to award sole source to UNCF. There was no reason that the
OSD SADBU office could not have developed a statement of work to
competitively seek out contractors capable of efforts such as training HBCU/MIs
in obtaining DoD contracts.

        Performance Measures. The OSD SADBU office did not effectively
review efforts performed under the cooperative agreements and was unaware that
ScienceWise had not fulfilled all of its proposed efforts. A disadvantage to the
Government for using cooperative agreements versus procurement contracts is
that performance measures are normally not required in assistance-type
instruments such as cooperative agreements. There were no defined performance
measures for either of the two cooperative agreements and contractor
performance was not effectively monitored. For example, the ScienceWise


                                     8
proposal included an easily measurable task to expand the MOLIS during the 3
years of the cooperative agreement by adding 150 additional HBCU/MI to the
214 already included, for a total of 364 participating HBCU/MI. However, the
MOLIS was expanded by only 44 HBCU/MI during the 4-year period
ScienceWise worked on the project. When questioned, the OSD SADBU office
had no knowledge of how many HBCU/MI had been added to the MOLIS during
the 4 years of the agreement and had no explanation as to why the MOLIS was
not expanded by the 150 HBCU/MI as stated in the ScienceWise proposal.

        Disregard for the Regulations. In addition to awarding cooperative
agreements when contracts would have been the proper vehicle, USAMRAA also
disregarded Federal regulations relating to the cooperative agreements. On the
ScienceWise cooperative agreement, USAMRAA allowed payments for profit/fee
and made advance payments without justification in violation of DoDGARs. In
addition, USAMRAA executed a 1-year extension of the cooperative agreement
in violation of item 4 of the cooperative agreement, which cited controlling
administrative and cost principles of Office of Management and Budget Circular
No. A-110, “Uniform Administrative Requirements for Grants and Agreements
with Institutions of Higher Education, Hospitals, and Other Non-Profit
Organizations,” revised November 19, 1993, as further amended September 30,
1999. These are serious violations and the commanding officer of USAMRAA
should perform a review and initiate appropriate administrative action against the
responsible officials.

        Profit/Fee. ScienceWise received over $203,000 of profit/fee during the
4 years of the cooperative agreement. In FY 1997, ScienceWise delivered an
unsolicited proposal to the OSD SADBU office. In the unsolicited proposal,
ScienceWise included an 8 percent profit/fee cost. However, when informed by
USAMRAA that profit/fee is not an allowable cost in cooperative agreements,
ScienceWise threatened to withdraw its proposal. To avoid losing the 2 percent
administrative fee earned on non-Fort Detrick organizations’ cooperative
agreements that they administer, USAMRAA officials suggested that
ScienceWise revise its proposal to include “cost of money” to compensate for the
loss of profit/fee. Cost of money is an allowable cost. However, the use by
ScienceWise was not documented or justified in the agreements officer’s file. To
make up for the balance of profit/fee not covered by the addition of cost of money
to the agreement, ScienceWise also increased its labor rates. Some of the
increased labor rates were reduced in subsequent ScienceWise proposals to levels
closely resembling the initial proposed labor rates, thereby giving the appearance
that the labor rates were increased on the revised proposal solely to compensate
for the loss of profit/fee from the initial proposal.

        The proposed profit/fee of 8 percent for the base year, 2 option years, and
the 1-year extension would have totaled $206,157 if ScienceWise had been paid
according to the initial proposal. However, a total of $203,059 was paid to
ScienceWise for cost of money ($119,189) and increased labor cost ($83,870)
during this same period. Therefore, USAMRAA officials knew that DoD
regulations did not allow profit/fee to be paid to ScienceWise, but circumvented
the prohibition by substituting cost of money and labor costs for profit/fee.




                                     9
            Payment Methods. Two payment methods are available for cooperative
    agreements between the Government and for-profit organizations: reimbursement
    and advance payments. Under the reimbursement method, the recipient requests
    reimbursement for costs incurred during a time period. Under the advance
    payments method, a DoD Component makes payment to a recipient based upon
    projections of the recipient’s cash needs, or uses a predetermined payment
    schedule when the timing of the recipient’s needs can be determined with
    sufficient accuracy.

            ScienceWise was paid quarterly in advance for the services it would be
    providing over the next quarter. According to DoDGARs, the grants officer in
    consultation with the program official must judge that advance payments to
    for-profit organizations are necessary. The rationale for the judgment should be
    documented in the award file. However, USAMRAA officials did not document
    in the award file their rationale for allowing advance payments to ScienceWise, a
    for-profit organization. Their explanation for allowing advance payments was
    that they regularly do so; however, USAMRAA does business mostly with
    nonprofit organizations. Based on the fact that advance payments to for-profit
    organizations should only be allowed in exceptional circumstances, USAMRAA
    officials were negligent in allowing such payments since the reimbursement
    method would have been more advantageous for the Government.

            Cooperative Agreement Extension. USAMRAA officials executed a
    1-year extension of cooperative agreement DAMD17-98-2-8011 in violation of
    Federal regulations. Office of Management and Budget Circular A-110 states that
    a one-time extension of the expiration date of the award of up to 12 months may
    not be initiated if the extension requires additional Federal funds. USAMRAA
    officials violated this regulation by making two modifications to the cooperative
    agreement on September 11, 2000, and February 13, 2001, which resulted in an
    extension for an additional year, from January 15, 2001, through January 14,
    2002, with an added cost of $750,190. In addition, section 31 of the cooperative
    agreement, “Option to Extend the Term of the Cooperative Agreement,” stated
    that the total duration of the agreement, including the exercise of any options,
    should not exceed April 14, 2001. Therefore, USAMRAA officials had no legal
    authority to extend the cooperative agreement beyond April 14, 2001.


Administration of Mentor Protégé Cooperative Agreements
    USAMRAA and the OSD SADBU office did not follow sound business practices
    and improperly encouraged ScienceWise to continue performance in the absence
    of a contract or other assistance instrument. USAMRAA and the OSD SADBU
    office improperly allowed ScienceWise to continue performance to the
    company’s detriment. USAMRAA did not designate grant officer representatives
    and the services provided by the cooperative agreement with UNCF were
    duplicative of services provided by other SADBU offices.

    Negotiations With ScienceWise. When the time period of the unauthorized final
    extension to the agreement began to expire, USAMRAA and the OSD SADBU
    office began negotiations with ScienceWise to further continue the MOLIS effort.


                                        10
In July 2001, ScienceWise submitted an unsolicited proposal to the OSD SADBU
office to continue the effort from January 16, 2002, through January 15, 2003,
with 2 additional option years. However, the award of a new contracting
instrument was delayed because of disagreement within USAMRAA as to
whether a cooperative agreement or procurement contract should be awarded.
The USAMRAA legal office nonconcurred with the use of a cooperative
agreement. However, ScienceWise believed all was going fine and that a new
award was imminent. A USAMRAA contract specialist was the main
Government point of contact with ScienceWise. The USAMRAA contract
specialist inappropriately told ScienceWise that a new contracting instrument
could be backdated to cover ScienceWise for efforts expended after the expiration
of cooperative agreement DAMD17-98-2-8011. The USAMRAA contract
specialist stated that there was a good faith agreement between the OSD SADBU
office and ScienceWise for continued assistance until the new contracting vehicle
was awarded even though the SADBU office has no authority to award contracts
or assistance agreements. Therefore, ScienceWise continued working on the
MOLIS through March 8, 2002, after expiration of cooperative agreement
DAMD17-98-2-8011 on January 14, 2002, in anticipation of being awarded a new
cooperative agreement. However, the OSD SADBU office ultimately decided not
to fund the MOLIS effort past January 14, 2002.

ScienceWise has an outstanding $95,000 claim against the Government for
services provided from January 16, 2002, through March 8, 2002. ScienceWise is
planning legal action against the Government to recoup the $95,000 plus costs for
damages suffered. According to the former owner of ScienceWise, the $95,000 in
lost revenue resulted in him selling his business and ceasing all MOLIS
operations. The consequences of the handling of the situation by the OSD
SADBU office and USAMRAA are best summed up in two e-mails from the
former President and principal owner of ScienceWise to the Director, OSD
SADBU office:
            . . . in my 30 years of working with the Federal Government in many
           capacities, this has been the worst treatment of a small business and the
           minority community, minority online information service, that I have
           ever seen, heard of or been associated with.

           It seems ironic that the Office of Small and Disadvantaged Business
           put a small business out of business.

Designation of a Grant Officer Representative. USAMRAA did not formally
designate an OSD SADBU office grant officer representative that was instructed
in the restrictions of a grant officer representative’s authority. Although not
required, USAMRAA grant officials stated that they normally designate grant
officer representatives because it is a good business practice. However, no formal
designation of grant officer representatives was made for cooperative agreements
DAMD17-98-2-8011 and DAMD17-98-2-8012 due to what USAMRAA officials
deemed “a clerical oversight.” Although OSD SADBU individuals were acting in
that capacity, they never received formal written designation from the
USAMRAA grants officer and, therefore, had no authority to perform grant
officer representative functions. Typically, a grant officer representative would
be delegated authority and duties such as:


                                         11
           •   coordinating and consulting with the grantee on all programmatic and
               technical matters which may arise in the administration of the grant or
               cooperative agreement;

           •   evaluating project performance to ensure compliance with the grant or
               cooperative agreement terms and conditions; and

           •   receiving and reviewing required grantee reports (progress, financial,
               or other) on behalf of the Government to ensure that they are timely
               and complete.

    The written designation would also list the limitations of what the grant officer
    representative could approve and what must be approved by an authorized grants
    officer. Designation letters usually specify that the grant officer representative
    cannot:

           •   modify or alter the grant/cooperative agreement or any of its terms or
               conditions;

           •   waive the Government’s rights with regard to the grantee’s compliance
               with stated grant program or financial requirements or with grant
               terms or conditions; or

           •   approve any actions which would result in increased cost of
               performance.

    A formal written designation would have provided the OSD SADBU individuals
    with written guidelines as to their authority and responsibilities, which may have
    helped to avoid some of the problems identified during the audit.

    Services Provided. The services provided by the UNCF cooperative agreement
    to HBCU/MI were, in many cases, duplicative of services available through other
    SADBU offices. For example, the Defense Logistics Agency SADBU office
    operates Procurement Technical Assistance Centers, which are available
    throughout the country to assist small businesses in doing business with the
    Government. Although Procurement Technical Assistance Centers are aimed to
    assist businesses, they are available to assist HBCU/MI that want to participate in
    DoD contracting. Many of the technical assistance services provided by UNCF
    can be obtained from Procurement Technical Assistance Centers including
    training in electronic research administration, fundamentals of sponsored
    programs administration, and developing winning proposals.


Mentor Protégé Program Funds
    A potential Antideficiency Act violation may have occurred. The Under
    Secretary of Defense (Comptroller)/Chief Financial Officer should initiate a
    preliminary review of the potential violation. DoD 7000.14-R, “DoD Financial
    Management Regulation,” volume 14, March 1998, establishes procedures for
    DoD Components to use in identifying, investigating, reporting, and processing


                                        12
violations of the Antideficiency Act. The OSD SADBU office did not employ
Mentor Protégé Program funds according to statute. The OSD SADBU office, in
the absence of an operating budget, authorized Mentor Protégé Program funds for
the cooperative agreements with ScienceWise and UNCF. The use of Mentor
Protégé Program funds for the cooperative agreements and for OSD SADBU
office support was questionable because the Act does not allow the use of Mentor
Protégé Program funds for other programs or purposes. In addition, the existing
audit trail of financial documents from the OSD SADBU office and the
Washington Headquarters Service is insufficient to accurately trace the
distribution of Mentor Protégé Program funds to the Military Departments and
Defense agencies.

The OSD SADBU office authorized $7.3 million of Mentor Protégé Program
funds to support cooperative agreements with ScienceWise and UNCF over the
life of the agreements. By using Mentor Protégé Program funds for the
cooperative agreements and other administrative purposes, it denied mentor firms
approximately $12 million that could have been used to assist in the development
of protégé firms. Instead of applying all of the funds to mentor reimbursements,
the OSD SADBU office authorized 42 percent of Mentor Protégé Program funds
for the cooperative agreements with ScienceWise and UNCF, an OSD SADBU
office support contract, and various other OSD SADBU office support expenses.

Other Uses of Mentor Protégé Funds. Our review concentrated on the budgets
of Mentor Protégé Program funds from FY 2000 through FY 2002 as older
documentation was insufficient to analyze the purposes for which funds were
budgeted or used. In addition to supporting the cooperative agreements, the
OSD SADBU office authorized FY 2000 through FY 2002 Mentor Protégé
Program funds for mentor reimbursement, an OSD SADBU office support
contract, and other OSD SADBU office support. The following figure illustrates
the purposes for which the OSD SADBU office authorized FY 2000 through
FY 2002 Mentor Protégé Program funds.




                                   13
                                         UNCF
                                                 ScienceWise
                                          4%
                                                     5%
                                                            Other OSD
                                                           SADBU Office
                                                             Support
                                                               11%




                                                               OSD SADBU
     Mentor                                                    Office Support
  Reimbursement                                                  Contract
      58%                                                           22%




Use of Mentor Protégé Program Funds (FY 2000 – FY 2002)

        UNCF. As of April 29, 2002, the OSD SADBU office had authorized
$1.1 million in FY 2000 through FY 2002 Mentor Protégé Program funds for the
cooperative agreement with UNCF. The $1.1 million represented 4 percent of the
total $28.7 million that the OSD SADBU office had authorized.

       ScienceWise. As of April 29, 2002, the OSD SADBU office had
authorized $1.4 million in FY 2000 through FY 2002 Mentor Protégé Program
funds for the cooperative agreement with ScienceWise. The $1.4 million
represented 5 percent of the total $28.7 million that the OSD SADBU office had
authorized.

        Other OSD SADBU Office Support. As of April 29, 2002, the
OSD SADBU office had authorized $3 million in FY 2000 through FY 2002
Mentor Protégé Program funds for various forms of OSD SADBU office support
in addition to services provided under the annual OSD SADBU office support
contract. The $3 million represented 11 percent of the total $28.7 million that the
OSD SADBU office had authorized. The various OSD SADBU office support
services, which included advertising and travel expenses, did not involve mentor
reimbursements.

        OSD SADBU Office Support Contract. As of April 29, 2002, the
OSD SADBU office had authorized $6.4 million in FY 2000 through FY 2002
Mentor Protégé Program funds for the OSD SADBU office support contract. The
office support contract was established to obtain professional services and
systems in support of the management, implementation, and execution of OSD
SADBU office programs. Specific tasks to be performed by the contractor
included database management, statistical analysis and reporting, outreach,


                                    14
    conference and symposia, and program management. The $6.4 million
    represented 22 percent of the total $28.7 million that the OSD SADBU office had
    authorized. Although some tasks included support of the Mentor Protégé
    Program or efforts with a clear nexus with the Mentor Protégé Program, the
    OSD SADBU office support contract did not solely support the Mentor Protégé
    Program or involve mentor reimbursements.

            Mentor Reimbursement. As of April 29, 2002, the OSD SADBU office
    had authorized payments totaling $28.7 million in FY 2000 through FY 2002
    Mentor Protégé Program funds. Of the $28.7 million, the OSD SADBU office
    used $16.7 million, or 58 percent, for reimbursing mentors under Military
    Department and Defense agency mentor protégé agreements. The OSD SADBU
    office used the remaining $12 million, or 42 percent, for payment of various
    forms of OSD SADBU office support.

    Budget Documentation. The OSD SADBU office personnel did not maintain
    sufficient documentation to determine whether the Military Departments and
    Defense agencies received Mentor Protégé Program funds as budgeted. The
    OSD SADBU office uses the Washington Headquarters Service to process
    funding documents. However, existing documentation did not facilitate a viable
    comparison between the amount of Mentor Protégé Program funds that was
    budgeted for each Military Department or Defense agency and the amount that
    was authorized for mentor reimbursement under Military Department and
    Defense agency mentor protégé agreements. For instance, the FY 2000 Mentor
    Protégé Program budget stated that the Navy would receive $7.0 million in FY
    2000 Mentor Protégé Program funds for Navy mentor protégé agreements. As of
    April 29, 2002, records at the OSD SADBU office and at the Washington
    Headquarters Service appeared to indicate that the Navy had received less than
    $1 million of the budgeted $7.0 million. However, Navy SADBU officials
    reported that, as of July 25, 2002, nearly $5.7 million in FY 2000 Mentor Protégé
    Program funds was obligated to the Navy and an additional $1.3 million had been
    identified for the Navy. In addition, OSD SADBU office and Washington
    Headquarters Service records could not be used to determine the amount of
    Mentor Protégé Program funds that was received by the Army Mentor Protégé
    Program. The Air Force received its budgeted Mentor Protégé Program funds at
    one time each fiscal year, a method that made the funding easily traceable.


USAMRAA and OSD SADBU Office Management Controls
    USAMRAA Management Controls. The management control program at
    USAMRAA did not include the award and administration of cooperative
    agreements as an area of review. Therefore, the management control program
    was inadequate to provide reasonable assurance that DoDGARs and other Federal
    regulations were properly adhered to during the cooperative agreement award and
    administration process. In FY 2001, according to USAMRAA personnel,
    USAMRAA awarded approximately $548 million in grants and cooperative
    agreements. Management controls could have eliminated the grants officer
    violations, which cost the Government close to $1 million, a combination of the



                                       15
    $750,000 cost of the unauthorized year extension and the $203,000 of profit/fee
    paid ScienceWise, and could have prevented the Government from being at risk
    for a $95,000 claim/lawsuit.

    The USAMRAA uses standards developed by the International Organization for
    Standardization (ISO) as the basis for its management control program. Those
    standards include eight guiding principles: customer focus, leadership,
    involvement of people, process approach, system approach to management,
    continual improvement, factual approach to decision making, and mutually
    beneficial supplier relationship.

    OSD SADBU Office Management Controls. The OSD SADBU officials were
    unaware of any management control program. The lack of a management control
    program contributed to the inappropriate use of cooperative agreements, the
    inadequate administration of the agreements, and the questionable use of Mentor
    Protégé Program funds.


Conclusion
    The OSD SADBU office did not responsibly manage the Mentor Protégé Program
    and failed in its stewardship responsibilities for taxpayers’ monies. In addition,
    USAMRAA awarded cooperative agreements, legal devices that give financial
    assistance to organizations performing public services used only when authorized
    by law, to contractors providing services to the Government, which violated
    Federal regulations. The use of cooperative agreements resulted not only in the
    problems that there were no specific statements of work, no performance
    measures, and no certifications of reasonable costs, but also in the lack of controls
    inherent with cooperative agreements. USAMRAA also allowed costs of
    approximately $1 million to be charged to the Government for inappropriate
    profit/fee and an inappropriate extension of performance on a cooperative
    agreement. In addition, from FY 2000 through FY 2002, the OSD SADBU office
    denied Mentor Protégé Program participants approximately $12 million of Mentor
    Protégé Program funds and may have violated the Antideficiency Act.


Management Comments on the Finding and Audit Response
    U.S. Army Medical Research and Materiel Command Comments. The
    Principal Assistant Responsible for Contracting, U.S. Army Medical Research
    and Materiel Command responded to the draft report finding on Mentor Protégé
    Cooperative Agreements. The Principal Assistant stated that the draft report only
    briefly addressed the objectives of the audit and concluded that, because there
    were not specific statements of work or certifications in the acquisition files, the
    audit team could not determine whether the work as specified in the agreements
    was performed or whether the Government received adequate value from the
    work. The Principal Assistant noted that the U.S. Army Medical Research and




                                         16
Materiel Command never received any complaints of non-performance or lack of
value, and that the draft report cited no examples of required work that was not
performed or that the amount paid was not fair value.

The Principal Assistant nonconcurred with the draft report comment that
cooperative agreements do not bring a direct benefit to the Government and stated
that there is no prohibition against the Federal government receiving direct
benefit for participating in a cooperative agreement. He quoted section 6303, title
31, United States Code, which states:
           An executive agency shall use a cooperative agreement as the legal
           instrument reflecting a relationship between the United States
           Government and a State, a local government, or other recipient when
           (1) the principal purpose is to transfer a thing of value to the State,
           local government, or other recipient to carry out a public purpose of
           support or stimulation authorized by a law of the United States instead
           of acquiring (by purchase, lease, or barter) property or services for the
           direct benefit or use of the United States Government . . . .

The Principal Assistant disagreed with the draft report statement that the
DoDGARs regulate cooperative agreements and the FAR regulates contracts,
stating that, “there is an absolute relationship between the DoDGAR and FAR.”
The Principal Assistant also disagreed with the conclusion that using cooperative
agreements avoided the requirements of FAR 15.6, stating that, “the cooperative
agreements were written under the authority . . . [of section 2302, title 10, United
States Code] and DoDGAR, which have very little to do with the FAR.”

The U.S. Army Medical Research and Materiel Command nonconcurred with the
statement that USAMRAA improperly awarded cooperative agreements and
disagreed with the statement that USAMRAA awarded legal instruments with
little control over public funds, stating that, “the cost principles referenced in the
agreement provide the same level of control as would any contract issued in its
stead.” The Principal Assistant argued that competitive contracts were not
required by law and that to fault the contracting activity for selecting cooperative
agreements and then for an additional error for every difference between
cooperative agreements and procurement contracts was unfair.

The Principal Assistant also stated that required exceptional circumstances
existed that justified advance payments to ScienceWise. The Principal Assistant
emphatically denied the allegation that USAMRAA was influenced by receiving a
2 percent surcharge to administer cooperative agreements and requested that the
final report be amended to delete any such insinuation. The Principal Assistant
stated that the draft report incorrectly interpreted Office of Management and
Budget Circular A-110 as prohibiting all contract extensions when it actually only
prohibits more than one unilateral, no-cost extension.

USAMRAA nonconcurred that the appointment of a Grant Officer’s
Representative would have resulted in different outcomes resulting from the
awards of the cooperative agreements stating that there was no requirement to
appoint a representative in these cases. USAMRAA nonconcurred that lack of
management controls cost $1 million. The Principal Assistant stated that the draft


                                         17
report was incorrect in noting that award and administration of cooperative
agreements was not an area of review for management controls, stating that
USAMRAA is the Army’s only acquisition activity meeting international quality
standards.

USAMRAA nonconcurred with the draft report statement that there was no
specific statute authorizing the use of cooperative agreements for the Mentor
Protégé Program. The Principal Assistant stated that there was an incorrect
citation used in the request for approval for an award of a cooperative agreement,
stating that the correct citation was section 2302, title 10, United States Code.

Audit Response. At the heart of this report regarding USAMRAA is the question
of when it is appropriate to use cooperative agreements and competitive contracts.
As stated in the draft report, cooperative agreements are used to provide
assistance to the recipient to carry out a public service. Contracts are mutually
binding documents obligating the seller to furnish supplies or services and the
buyer to pay for them. When an activity has stewardship responsibilities over
taxpayers’ funds, as all contracting activities do, that activity has an obligation to
use the contracting vehicle that is in the best interest of the Government. The
point of disagreement with the U.S. Army Medical Research and Materiel
Command is not that cooperative agreements were used when prohibited, but that
cooperative agreements were used when it was clearly in the best interest of the
Government to use contracts, thereby ensuring the Government received specific
services and that those services represented adequate value.

Our objectives reflected the concerns of the current OSD SADBU Director, who
requested this audit. We agree with U.S. Army Medical Research and Materiel
Command comments that required specificity of cooperative agreement
statements of work are less than those for contracts and that there is no
requirement to ensure fair and reasonable prices are paid for services received
under cooperative agreements. Therefore, we reiterate that for the services
received through these cooperative agreements, we are not able to determine
whether the work was performed or had value equal to the costs to the
Government.

We revised the final report to read, “Unlike contracts, the principal purposes of
cooperative agreements are not for the direct benefit of the Government.”
However, the mentor protégé cooperative agreements were used to acquire, by
purchase, services for the direct benefit of the Government, which section 6303,
title 31, United States Code does not prohibit, but does state clearly that it is not
the reason for which cooperative agreements are to be used. We agree that there
is a relationship between the DoDGARs and the FAR but disagree that
cooperative agreements with general statements of work and without certified
reasonable prices have cost principles with equivalent levels of control to those of
competitive contracts.

If exceptional circumstances that justified advance payments to ScienceWise
existed, there was no documentation of those circumstances in the award file. As
stated in the draft report, such documentation is required. During the audit,
USAMRAA officials stated that the revenue from the 2 percent surcharge was
necessary to fund salaries and other expenses of acquisition personnel. The


                                     18
    USAMRAA reliance on the 2 percent surcharge to meet payroll expenses creates
    an appearance that USAMRAA may unduly accommodate customers to receive
    additional funds. Therefore, the draft report was not revised. The U.S. Army
    Medical Research and Materiel Command’s comments regarding the
    interpretation of Office of Management and Budget Circular A-110 seem to
    suggest that modifications to cooperative agreements are bilateral agreements.
    We do not agree.

    Section 2302, title 10, United States Code does not authorize mentor protégé
    cooperative agreements.


Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Commanding Officer, U.S. Army Medical
    Research and Materiel Command:

            a. Conduct a review of all active cooperative agreements awarded by
    the U.S. Army Medical Research Acquisition Activity to identify agreements
    that provide direct benefit to the Government or should have been awarded
    by contract. If other improper agreements are found, action should be
    initiated to terminate and negotiate a contract at the next available option
    period.

    Management Comments. The Principal Assistant Responsible for Contracting,
    U.S. Army Medical Research and Materiel Command concurred, stating that the
    review will be completed in the next 60 days. He commented that the selection of
    procurement versus assistance is a timely issue.

          b. Initiate appropriate administrative action against U.S. Army
    Medical Research Acquisition Activity officials responsible for the approval,
    award, and administration of cooperative agreements DAMD17-98-2-8011
    and DAMD17-98-2-8012.

    Management Comments. The Principal Assistant Responsible for Contracting,
    U.S. Army Medical Research and Materiel Command nonconcurred, stating that,
    based on the information available, there was no evidence of any intentional
    misconduct or gross negligence. At worst, personnel uncritically, and in good
    faith, accepted the recommendations and executed the requests of very high-level
    DoD officials in the procurement chain, whose correspondence stated that
    assistance agreements were the appropriate instruments.

    Audit Response. The U.S. Army Medical Research and Materiel Command
    identified two memorandums from the Deputy Assistant for Procurement, Office
    of the Under Secretary of Defense for Acquisition and Technology dated
    October 6 and October 7, 1997, as critical documents in the acquisition files for
    the cooperative agreements. These high-level DoD official memorandums were
    both addressed to the Director, OSD SADBU, and were forwarded to
    USAMRAA. An OSD SADBU office employee who, in 1997, reported to a


                                        19
previous OSD SADBU Director, not the OSD Director of Procurement Policy,
signed those memorandums. Although the letterhead and the signature block on
the memorandums might have been misleading to the uninformed, USAMRAA
coordination with the OSD SADBU office should have made it obvious that
USAMRAA was dealing with an OSD SADBU official, not a DoD procurement
policy official. On January 23, 2003, the previous OSD SADBU Director was
indicted on 12 counts, including bribery and money laundering. The employee
who signed the memorandums continued to work for the OSD SADBU office.

Despite any confusion that may have been created by the memorandums,
USAMRAA contracting officials should have known better than to award the
agreements. The services provided under the agreements clearly should have
been contracted; USAMRAA legal counsel stated that a contract would have been
the appropriate vehicle. In addition, the requirements under the agreements could
have been competed but no documentation existed as to why competition was not
used. Further, as stated in the report, neither agreement met the requirements of
the Mentor Protégé Program. We believe that USAMRAA contracting officials
awarded agreements when their training should have armed them with knowledge
that the awards were improper. In holding warrants, USAMRAA contracting
officials had a responsibility to use the contractual instruments that were in the
best interest of the Government. We request that the U.S. Army Medical
Research and Materiel Command reconsider its position and provide additional
comments on the final report.

2. We recommend that the Director, U.S. Army Medical Research
Acquisition Activity:

       a. Establish management controls that ensure decisions on contract
and assistance instruments are reviewed by well-trained, capable personnel
throughout the review process, including legal review.

Management Comments. The Principal Assistant concurred, stating that the
Legal Office and USAMRAA had entered into a Memorandum of Understanding
in 2002 to maximize the use of the command’s legal assets. New initiatives
include the creation of a five-lawyer acquisition legal support team, daily on-site
legal support, increased legal reviews, and legal education programs for
USAMRAA key staffs.

       b. Develop a command instruction that addresses when to use
cooperative agreements and issues that should be addressed within
cooperative agreements. The instruction should cover the basic
fundamentals of DoD 3210.6-R, “DoD Grant and Agreement Regulations,”
April 13, 1998, with particular emphasis on the difference between for-profit
and nonprofit organizations, competition of cooperative agreements, and
preferred payment methods.

Management Comments. The Principal Assistant concurred, stating that the
command instruction had been completed in the spring of 2001. Further,
USAMRAA plans to schedule and complete additional cooperative agreement
training for all personnel within the next 60 days.



                                    20
3. We recommend that the Under Secretary of Defense for Acquisition,
Technology, and Logistics ensure funding is budgeted for the operations and
maintenance of the Office of Small and Disadvantaged Business Utilization,
Office of the Secretary of Defense.

4. We recommend that the Under Secretary of Defense (Comptroller)/Chief
Financial Officer initiate a preliminary review to determine whether the
improper use of Mentor Protégé Program funds resulted in an
Antideficiency Act or other funding violation in accordance with
DoD 7000.14-R, “Financial Management Regulations.”

5. We recommend that the Director, Office of Small and Disadvantaged
Business Utilization, Office of the Secretary of Defense:

       a. Discontinue use of Mentor Protégé Program funds for purposes
other than mentor reimbursement of costs associated with providing
assistance to protégés.

     b. Establish procedures that ensure clear Mentor Protégé Program
documentation exists in order to improve oversight of the purposes for which
Mentor Protégé Program funds are used.

       c. Employ adequate management controls to ensure contracts and
allocated funds are used and administered appropriately.

Management Comments. As of March 24, 2003, the Under Secretary of
Defense for Acquisition, Technology, and Logistics; the Under Secretary of
Defense (Comptroller)/Chief Financial Officer; and the Director, Office of Small
and Disadvantaged Business Utilization, Office of the Secretary of Defense had
not responded to a draft of this report. We request that the Under Secretary of
Defense for Acquisition, Technology, and Logistics; the Under Secretary of
Defense (Comptroller)/Chief Financial Officer; and the Director, Office of Small
and Disadvantaged Business Utilization, Office of the Secretary of Defense
provide comments in response to the final report.




                                   21
Appendix A. Scope and Methodology
   We researched applicable laws, regulations, and directives concerning DoD use of
   contracts, cooperative agreements, and grants. We reviewed cooperative
   agreements DAMD17-98-2-8011 and DAMD17-98-2-8012. We reviewed
   Mentor Protégé Program budgeting data from FY 1998 through FY 2002, funding
   authorization documents, and Standard Forms 272, Report of Federal Cash
   Transactions. We evaluated the amount of interaction between the OSD SADBU
   office, ScienceWise, and UNCF.

   During our audit, we visited the OSD SADBU office; the Military Department
   and Defense agency SADBU offices; USAMRAA; ScienceWise; UNCF; Office
   of the Under Secretary of Defense for Acquisition, Technology, and Logistics;
   Defense Contracting Command – Washington; Defense Criminal Investigative
   Service; Washington Headquarters Service; and Office of the Under Secretary of
   Defense (Comptroller)/Chief Financial Officer. We interviewed USAMRAA
   contracting personnel and legal counsel, Directors or Deputy Directors of the
   Military Department and Defense agency SADBU offices, a Defense Criminal
   Investigative Service investigator, and ScienceWise and UNCF personnel.

   We addressed cooperative agreements DAMD17-98-2-8011 and
   DAMD17-98-2-8012 and Mentor Protégé Program funding from FY 1998 to
   FY 2002. We did not address OSD SADBU office operations other than to
   determine the types of funding used and the OSD SADBU office role in the two
   cooperative agreements. In addition, we did not examine the Military Department
   SADBU offices or Military Department Mentor Protégé Programs.

   We evaluated the methods USAMRAA used to award two cooperative
   agreements between the OSD SADBU office and ScienceWise,
   DAMD17-98-2-8011, and UNCF, DAMD17-98-2-8012, using Mentor Protégé
   Program funding. Specifically, we analyzed whether the appropriate contract
   vehicle was used, whether the Government received a benefit from the
   cooperative agreements, and whether Mentor Protégé Program funding was
   properly allocated.
   We reviewed ScienceWise and UNCF unsolicited proposals, statements of work,
   annual reports, cost proposals, and budgeted and actual expenses for the UNCF
   conferences. We also reviewed Mentor Protégé Program funding data from
   FY 1998 through FY 2002, funding authorization documents, and Standard
   Forms 272, Report of Federal Cash Transactions.

   We performed this audit from April 2002 through January 2003 in accordance
   with generally accepted government auditing standards. Accordingly, we
   included tests of management controls considered necessary.

   Use of Computer-Processed Data. We did not use computer-processed data to
   perform this audit.




                                      22
    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the DoD Contract Management high-risk area.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    USAMRAA ISO 9002 procedures relating to processing cooperative agreements
    and the adequacy of the OSD SADBU office management control procedures
    related to the Mentor Protégé Program. We also reviewed management’s
    self-evaluation applications of those controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses at USAMRAA and the OSD SADBU office, as defined by
    DoD Instruction 5010.40.

    The USAMRAA management controls were inadequate to ensure that
    USAMRAA complied with applicable regulations in awarding and administering
    cooperative agreements. Recommendations 1.a., 2.a., and 2.b., if implemented,
    will correct the identified weaknesses and could result in significant savings for
    USAMRAA in the acquisition of services. A copy of the report will be provided
    to the senior official responsible for management controls in the U.S. Army
    Medical Command.

    The lack of OSD SADBU office management controls contributed to the use of
    questionable funding and improper uses of cooperative agreements.
    Recommendations 5.a., 5.b., and 5.c., if implemented, will correct the identified
    weaknesses and restore approximately $4 million to the Mentor Protégé Program
    annually. A copy of the report will be provided to the senior official responsible
    for management controls in the Office of the Under Secretary of Defense for
    Acquisition, Technology, and Logistics.

    Adequacy of Management’s Self-Evaluations. The USAMRAA officials did
    not identify the procedures for awarding and administering cooperative
    agreements as an assessable unit or as an area to be reviewed under the ISO
    procedures and, therefore, did not identify or report the management control
    weaknesses identified by the audit.

    The OSD SADBU office did not have a discernable management control program
    and, therefore, did not identify or report the management control weaknesses
    identified by the audit.




                                        23
Prior Coverage
     During the last 5 years, the General Accounting Office (GAO) issued two reports
     discussing the Mentor Protégé Program. Unrestricted GAO reports can be
     accessed over the Internet at http://www.gao.gov.

General Accounting Office
     GAO Report No. GAO-01-767, “Contract Management: Benefits of the DoD
     Mentor-Protégé Program Are Not Conclusive,” July 19, 2001
     GAO Report No. GAO/NSIAD-98-92, “Defense Contracting: Sufficient,
     Reliable Information on DOD's Mentor-Protégé Program Is Unavailable,” March
     30, 1998




                                        24
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Office of Small and Disadvantaged Business Utilization
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director for Acquisition Initiatives

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Commanding Officer, U.S. Army Medical Command
  Commanding Officer, U.S. Army Medical Research and Materiel Command
      Director, U.S. Army Medical Research Acquisition Activity

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform



                                          25
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        26
U.S. Army Medical Research and Materiel
Command Comments




                     27
28
29
30
     Final Report
      Reference




     Revised
     Page 2




31
32
33
34
35
36
37
38
39
40
41
42
Team Members
The Contract Management Directorate, Office of the Assistant Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

Robert K. West
Terry L. McKinney
Timothy E. Moore
Steven I. Case
Cheryl L. Snyder
David P. Goodykoontz
Elizabeth M. Baarlaer
Lisa C. Rose-Pressley
